                        U.S. SMALL BUSrNESS ADMINISTRATION 

                           OFFICE OF INSPECfOR GENERAL 

                                 AUDITING DIVISION 




                                                                 AUDIT REPORT

                                                        Issue Date: November 17, 2007
                                                        Number: 8-04


To:            Department of Treasury, Financial Management Service

              [Exemption 2J
From:         "Debra Rit!
               Assistant Inspector General for Auditing

Subject:       GFRS for Fiscal Year 2007

       Pursuant to OMB Circular A-136, Financial Reporting Requirements (Circular A-136)
and the Treasury Financial Manual Part 2, Chapter 4700 (TFM 2-4700), attached is the
Independent Auditors' Report on Special-Purpose Financial Statements, issued by KPMG
LLP on the Small Business Administration's (SBA) reclassified balance sheet as of
September 2007 and 2006, and the reclassified statements of net costs and changes in net
position and Federal trading partner note for the year then ended (hereinafter referred to as the
special-purpose financial statements).

       The auditor found that the statements, including the Federal trading partner note,
present fairly in all material respects, the financial position ofSBA as of September 30, 2007
and 2006, and the results of operations, and the changes in net position for the period then
ended in conformity with accounting principles generally accepted in the United States of
America and the presentation pursuant to the requirements ofTFM 2-4700. As requested, the
following documents are attached:

        (1) reclassified financial statements;
        (2) GF004F Trading Partner Summary Note Report;
        (3) GF003G Closing Package Line Reclassification Summary Report;
        (4) GF006 FR Notes Report;
        (5) GF007 Other Data Report;
        (6) Management Representation Letter on the Closing Package, including the
            Summary of Unadjusted Misstatement; and
        (7) Closing Package Independent Auditors' Report.

        We reviewed KPMG's report and related documentation and made necessary inquiries
of their representatives. Our review was not intended to enable us to express, and we do not
express, an opinion on the SBA's reclassified financial statements or on conclusions about
internal control and the SBA's compliance with laws and regulations. However, our review
disclosed no instances where KPMG did not comply, in all materials respects, with generally
accepted government auditing standards.

       We appreciate the cooperation and assistance ofSBA and KPMG representatives.
Should you or your staff have any questions, please contact me at [Exemption 210r Jeffrey
R. Brindle, Director, Information Technology and Financial Management Group at
[Exemption 21

Attachments 


Distribution: 

Department of Treasury, Financial Management Services: financial.reports@fins .treas.gov 

Government Accountability Office: USCFS@gao.gov 

OMB, Office of Federal Financial Management: Statements@omb.eop.gov 

     United States Small Business Administration 


          Closing Package – September 30, 2007


                   Table of Contents 




Inspector General Transmittal Letter

Independent Auditors’ Report

Closing Package Financial Statement Report

Balance Sheet

Statement of Net Cost

Statement of Changes in Net Position

Trading Partner Summary Note Report

Balance Sheet

Statement of Net Cost

Statement of Changes in Net Position

Closing Package Line Reclassification Summary Report

Balance Sheet

Statement of Net Cost

Statement of Changes in Net Position

FR Notes Report

1–9

10B – 15

17 – 20

22

25 – 26

Additional Note 27
      Other Data Report

      1–2

      9 – 10

      15 – 17

      Management Representation Letter



ADMINISTRATIVE NOTE:
Only the Inspector General Transmittal Letter and
Closing Package Table of Contents are being posted
to the SBA web site. Due to the large size and
image degradation due to scanning, the attachments
described above are available only in paper and on
CD-ROM. If you would like a copy of one or more,
send your request to ig.counseldiv@sba.gov or call
202-205-7200. Identify which attachments you want
and your preferred format.

Added by SBA OIG Counsel Division after completion
of audit report.
